OFFICE OF INSPECTOR GENERAL'                                     . U.S. DEPARTMENT OF THE INTERIOR


                               RECOVERY OVERSIGHT OFFICE
                                        Washington, DC 20240

                                                                                April 8, 2009

    To:            Chris Henderson
                   Department Recovery Act Coordinator

    From:          RobertA. Kn       ~~:\
                   Assistan spector G&fle;;l; R,covery Oversight Office

    Subject:       Recovery Oversight Advisory - Single Audits of Recovery Act Programs (ROO-
                   ROA-MOA-9001-2009)

            Congress provided us with funding to oversee and ensure accountability of the $3 billion
    appropriated to the Department of the Interior (Department) in the American Recovery and
    Reinvestment Act (Recovery Act or Act). To help safeguard these taxpayer dollars, we will
    focus on: preventing fraud, waste, and abuse of recovery and reinvestment dollars; early
    detection to reduce the impact of such misuse when it does occur; and ensuring transparency in
    our oversight efforts. In a spirit of collaboration with the Department as it implements the
    massive programs envisioned under the Act, this advisory provides input into the Department's
    strategy for ensuring adequate review is given in single audits to programs that receive funds
    under the Recovery Act and are at higher risk for misuse of funds.

            It is our understanding that the Department intends to award over $1 billion (nearly a
    third) of the Department's Recovery Act funding through federal assistance awards. Assessing
    the risk of Recovery Act assistance programs to identify those which may be high-risk will be an
    important first step for the Department to ensure adequate monitoring and oversight and to
    address past problems that our office has identified with such oversight.

    Issue

            Programs funded under the Recovery Act inherently carry greater risk than non-Recovery
    Act programs due to expedited awarding timeframes, large dollar values, and extensive reporting
    requirements. OMB is aware of these risks, and issued "Updated Implementing Guidance for the
    American Recovery and Reinvestment Act of2009" on April 3, 2009. Section 5.6 of this
    guidance states that "Federal agencies will perform a risk analysis of Recovery Act programs and
    request OMB to designate any high risk programs as Single Audit major programs, i.e., programs
    which must be tested in a particular year." Section 3.11 of the same guidance requires agencies
    to develop a risk assessment that considers, at a minimum, several factors listed in the guidance
    in an effort to identify, prioritize, and mitigate risks that could impede accomplishment of
    programmatic objectives.

            As directed by OMB in its guidance, the Department should continue to use the single
    audit as one monitoring tool for high-risk Recovery Act federal assistance programs. However,
    during a single audit, only major programs are subjected to extensive internal control and
    compliance testing. Historic data demonstrates that Interior programs are less likely to be
    selected as major programs in single audits of non-tribal and non-insular recipients, especially at
the state-level. This trend results from the smaller dollar value of Interior’s programs compared
to other agencies’ programs. If the past trend continues, the Single Audit becomes a less
effective tool for monitoring federal assistance activity because detailed internal control and
compliance testing would not be required.

         This trend can have a very real impact on the scrutiny Recovery Act programs in the
Department receive during a single audit. For example, 23 states receive Federal funds under the
Abandoned Mine Land Reclamation (AMLR) Program (CFDA 15.252) each year. At the state
level, the AMLR Program expenditures are significantly less than many other Federal programs.
For fiscal years 2005, 2006, and 2007, the AMLR Program was tested as a major program in
about 14 percent of those 23 states’ single audits. In monetary terms, almost $250 million, or 52
percent, of the total program expenditures over the three fiscal years were not tested in detail in
the states’ single audits. Abandoned mine land remediation and cleanup is one, among many,
project categories slated to receive funding under the Recovery Act.

        The Department has an opportunity to ensure that – although its program dollars might be
smaller those of other agencies – programs it designates as high risk receive appropriate attention
in the single audit. OMB specifically states (Section 5.6) that one tool used to drive
accountability for Federal awards under the Recovery Act is the designation of high-risk
programs as single audit major programs. To take advantage of this opportunity, the Department
must assess the risk of programs under which it plans to make awards and communicate to OMB
which programs are high risk. The program could then be subject to more detailed internal
control and compliance testing. Such a designation would also be communicated to the public in
the Compliance Supplement, OMB’s website, Recovery.gov, the Department’s Recovery
website, and the OIG website, making it more likely that suspicious activity observed by the
public would be reported.

       We do not require an official response to this advisory, but we will post it on our website
(www.doioig.gov) and Recovery.gov. Information contained in this advisory may also be
included in our semi-annual reports to Congress. Please feel free to contact me if you have any
questions.


cc:    Assistant Secretary – Policy, Management and Budget
       Director, Office of Acquisition and Property Management
       Director, Office of Financial Management
       Audit Liaison, Office of the Secretary




                                                                                                    2
  Report Fraud, Waste, Abuse , 

     and Mismanagement

           Fraud, waste, and abuse in government
           concerns everyone:Office of Inspector
           General staff, Departmental employees,
             and the general public. We actively
           solicit allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular Area
          programs and operations. You can report
              allegations to us in several ways.




By Mail: 	         U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW
                   Washington, D.C. 20240

By Phone	          24-Hour Toll Free            800-424-5081
                   Washington Metro Area        703-487-5435

By Fax	            703-487-5402

By Internet	       www.doioig.gov/hotline
